DOE/IG-0514




          AUDIT                  ADMINISTRATIVE CONTROL
         REPORT                   OF THE HANFORD REACH
                                   NATIONAL MONUMENT




                                          JULY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585

                                                   July 19, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Administrative Control of
                         the Hanford Reach National Monument"


BACKGROUND

In January 1997, the Office of Inspector General issued Report DOE/IG-0399, Audit of the U.S.
Department of Energy's Identification and Disposal of Nonessential Land, which identified
approximately 138,000 acres of land at the Hanford Site which were not essential to carrying out the
Department of Energy's (Department) mission. In June 2000, the President created the 195,000 acre
Hanford Reach National Monument (Monument) within the boundaries of the Department's Hanford
Site near Richland, Washington. Although the Department maintains administrative control and
jurisdiction over the land within the Monument, the Department of Interior's U.S. Fish and Wildlife
Service manages about 84 percent of the land. The objective of the audit was to determine if the
Department should retain administrative control of the land within the Monument.


RESULTS OF AUDIT

The audit disclosed that it was not in the Department's best interest to retain administrative control of
all land within the Monument. We identified approximately 143,000 acres of land that could be
transferred to the Department of Interior without adversely impacting operations at the Hanford Site.
In fact, the land identified for transfer includes land in the Wahluke Slope, Arid Lands Ecology
Reserve, and McGee Ranch/Riverland areas, which had previously been identified as nonessential for
carrying out the Department's mission. Department officials stated that they were retaining
administrative control of the land to provide safety buffers for site operations. As is discussed in our
report, current conditions at the Site do not support this rationale. Further, available documentation
suggested that the officials had concluded that retaining the land allowed the Department to provide
enhanced financial assistance to local governments. We found that by transferring administrative
control of the 143,000 acres, the Department could save about $1.5 million per year in payments in
lieu of taxes. In our view, it might well be more productive to use these funds to expedite the
environmental remediation effort at Hanford.
Based on reviews at a number of sites, the Office of Inspector General has taken the position that, for
economy and efficiency reasons, the Department's "footprint" should be kept to the absolute
minimum consistent with programmatic obligations. Thus, we believe that expeditious action should
be taken to transfer Hanford real property which is excess to the Department's needs.
                                                      -2-


MANAGEMENT REACTION

Management partially concurred with the finding and recommendation and is currently conducting a
detailed analysis to review the costs and operational impacts of transferring portions of the Monument to
the Department of Interior. However, management did not agree with the proposed transfer of about 58,000
acres within the Arid Lands Ecology Reserve portion of the Monument at this time. Management also
disagreed with the cost savings estimate included in the audit report, stating that cost savings to the Federal
Government as a whole are unknown and cannot be determined until a full analysis has been completed.

Management's commitment to perform an analysis of the costs and operational impacts of transferring a
majority of land within the Monument is responsive to our recommendation. We are concerned, however,
that such action was not taken in 1997 when this issue was first raised. We disagree with management's
position that the Arid Lands Ecology Reserve should not be considered for transfer at this time. Since the
U.S. Fish and Wildlife Service currently manages the Arid Lands Ecology Reserve, we see no practical
reason why administrative control of this tract of land should not be transferred at the same time as the land
within the Wahluke Slope and McGee Ranch/Riverland areas. Additionally, we recognize that actual cost
savings could be different than the estimate described in the report. However, the estimated cost savings
was based on the average assessed value per acre of land for making payments in lieu of taxes to local
governments.

While the issue of direct payments in lieu of taxes is important, there are numerous considerations – such as
the cost of providing security and surveillance; other overhead costs associated with retention of
administrative control; and, liability in the event of an accident – which make transfer or disposal of excess
Departmental real property beneficial.

Attachment

cc:    Deputy Secretary
       Under Secretary for Energy, Science and Environment
       Assistant Secretary for Environmental Management
ADMINISTRATIVE CONTROL OF THE HANFORD REACH
NATIONAL MONUMENT

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations..............................................…..2


               Land Not Needed by the Department

               Details of Finding.......................................................................3

               Recommendation and Comments .............................................5


               Appendices

               Scope and Methodology.............................................................8

               Land Available for Transfer at the Hanford Site .......................10

               Prior Office of Inspector General Reports ................................11
OVERVIEW

INTRODUCTION AND   In January 1997, the Office of Inspector General (OIG) issued Report
OBJECTIVE          DOE/IG-0399, Audit of the U.S. Department of Energy's Identification
                   and Disposal of Nonessential Land. The audit concluded that
                   approximately 309,000 acres of land, including about 138,000 acres of
                   the Hanford Site, were not essential to carrying out the Department's
                   mission. Management disagreed with the audit conclusion, stating that
                   the Department should finish realigning itself to new missions before
                   identifying and disposing of excess land. The Department planned to
                   identify and dispose of excess land after the realignment was
                   completed.

                   In September 1999, the Department issued the Final Hanford
                   Comprehensive Land-Use Plan Environmental Impact Statement,
                   designating the Wahluke Slope, Arid Lands Ecology Reserve, and
                   McGee Ranch/Riverland areas as "preservation" areas. The land-use
                   plan defined preservation areas as tracts of land managed for the
                   preservation of archeological, cultural, ecological, and natural
                   resources. Further, the Department stated that no new consumptive
                   uses would be allowed in the preservation areas, and that public access
                   to these areas would be limited to ensure that resource protection goals
                   were met.

                   Finally, in June 2000, the President created the Hanford Reach National
                   Monument (Monument) within the boundaries of the Hanford Site. The
                   195,000-acre Monument includes land in the Wahluke Slope, Arid
                   Lands Ecology Reserve, and McGee Ranch/Riverland areas. The
                   Monument is withdrawn from all forms of entry and disposition under
                   public land laws, and off-road vehicle traffic is prohibited except for
                   emergencies and Federally approved purposes. Furthermore, the
                   Monument proclamation requires the Department of Interior's U.S. Fish
                   and Wildlife Service to continue managing all Monument lands covered
                   by existing agreements with the Department. Currently, the U.S. Fish
                   and Wildlife Service manages about 84 percent of the land within the
                   Monument and the Department manages the remaining 16 percent. The
                   138,000 acres identified in the prior OIG report as not essential to
                   carrying out the Department's mission at the Hanford Site lie within the
                   Monument.

                   The objective of the audit was to determine if the Department should
                   retain administrative control of the land within the Monument.




Page 1                                                        Introduction and Objective
CONCLUSIONS AND   The Department should not retain administrative control of all land
OBSERVATIONS      within the Monument. About 143,000 acres of land within the
                  Monument could be transferred to the Department of Interior without
                  adversely impacting operations at the Hanford Site. The Department has
                  retained control of the land to provide safety buffers for site operations
                  and financial assistance for local governments. By transferring control
                  of 143,000 acres of the Monument to the Department of Interior, the
                  Department could save about $1.5 million per year in payments in lieu of
                  taxes.

                  In addition to DOE/IG-0399, the OIG has issued several other reports
                  that identified problems with the Department's management of land.
                  These reports are summarized in Appendix 3.

                  This audit identifies significant issues that management should consider
                  when preparing its yearend assurance memorandum on internal controls.




                                                              (Signed)
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
LAND NOT NEEDED BY THE DEPARTMENT

Land Could Be    The Department does not need to retain administrative control of all
Transferred      land within the Monument. About 143,000 acres of land within the
                 Monument could be transferred to the Department of Interior without
                 adversely impacting operations at the Hanford Site. The map in
                 Appendix 2 shows the location of the land that could be transferred.
                 This includes about 76,000 acres of the Wahluke Slope, 58,000 acres of
                 the Arid Lands Ecology Reserve, and 9,000 acres in the McGee Ranch/
                 Riverland areas. The Department should retain the remaining
                 52,000 acres of land within the Monument to provide safety buffers for
                 continuing operations at the Hanford Site. Additionally, the
                 Department has completed environmental cleanup of the 143,000 acres,
                 and the Environmental Protection Agency has removed the land from
                 its National Priorities List of cleanup sites.

                                             Wahluke Slope

                 About 76,000 acres of the Wahluke Slope are available for transfer.
                 This property originally served as a buffer zone for the Department's
                 plutonium production reactors along the Columbia River. However, the
                 Department shut down the last operating reactor at the Hanford Site in
                 1987. Additionally, the U.S. Fish and Wildlife Service and the
                 Washington State Department of Fish and Wildlife started managing
                 the Wahluke Slope as the Saddle Mountain National Wildlife Refuge
                 and the Wahluke Slope Wildlife Recreation Area in 1971. In 1999, the
                 U.S. Fish and Wildlife Service notified the Department of its intent to
                 modify the 1971 permit. The modification resulted in the U.S. Fish and
                 Wildlife Service managing all but 800 acres of the Wahluke Slope as a
                 wildlife refuge.

                                      Arid Lands Ecology Reserve

                 About 58,000 acres of the Arid Lands Ecology Reserve are available
                 for transfer. This area also served as a buffer zone and has remained
                 virtually undeveloped since being acquired by the Government over
                 50 years ago. In 1997, the Department granted the U.S. Fish and
                 Wildlife Service a permit to manage the area. The U.S. Fish and
                 Wildlife Service is currently preparing a comprehensive conservation
                 plan to identify refuge management actions and bring the Arid Lands
                 Ecology Reserve into the National Wildlife Refuge System.

                                     McGee Ranch/Riverland Areas

                 About 9,000 acres in the McGee Ranch/Riverland areas are available
                 for transfer. This tract of property lies between the Wahluke Slope and

Page 3                                                               Details of Finding
                           the Arid Lands Ecology Reserve along the Hanford Site's western
                           boundary. The Department used this property as a railway yard until
                           1954 and a munitions storage area for military exercises in the
                           1960s.

                                                Safety and Security Buffers

                           We considered existing facility safety and security buffer zones in
                           our analysis of the Department's need to retain ownership of the
                           Monument. All of the land we identify as available for transfer lies
                           outside the exclusive use zones (EUZ) that surround Hanford Site
                           facilities. The Department uses EUZs at the Hanford Site to identify
                           areas where access is restricted. Each facility's EUZ extends to the
                           distance where danger from routine and accidental releases of
                           radiation and hazardous chemicals diminishes to the point that
                           routine public access can be allowed. Surrounding each EUZ is a
                           larger area called an emergency-planning zone (EPZ). Although
                           access restrictions are not required within an EPZ, the Department is
                           responsible for ensuring that effective actions can be taken to
                           minimize the impact of operational emergencies on public safety and
                           health. We noted that the EPZs for several of the Hanford Site's
                           facilities extend beyond the current site boundary. Therefore, we
                           concluded that the Department does not need to retain administrative
                           control of Monument lands simply because they lie within an EPZ.

Agencies Are Required to   Federal regulations require that executive agencies hold only that
Release Lands Not Needed   land necessary to economically and efficiently support agency
                           missions. Specifically, Executive Order 12512, Federal Real
                           Property Management, requires agencies to ensure the effective use
                           of real property in support of mission-related activities.
                           Additionally, the Federal Property and Administrative Services Act
                           of 1949 requires agencies to review their real property holdings and
                           identify property which is not needed, underutilized, or not being put
                           to optimum use. Finally, the General Services Administration
                           guidelines state that agencies should determine if all property
                           holdings are essential for program requirements, and if buffer zones
                           are being kept to a minimum when assessing the continuing need for
                           land.

Land Was Retained to       The Department has retained control of the land to provide safety
Provide Buffers and        buffers for site operations and financial assistance for local
Financial Assistance       governments. The Department's draft Memorandum of
                           Understanding (MOU) with the U.S. Fish and Wildlife Service for


Page 4                                                                        Details of Finding
                              Monument management states that retaining control of the land will
                              allow the Department to ensure that the area continues to function as
                              a safety buffer for continuing operations at the Hanford Site.
                              However, not all the land is needed as a safety buffer. Also,
                              according to the 1999 Hanford Site land-use plan, retaining control
                              of Hanford Site lands would maximize the payments in lieu of taxes
                              available to local communities. The Department estimated that it
                              pays ten times more in payments in lieu of taxes than the Department
                              of Interior would pay if it controlled the land.

                              The Department could save about $1.5 million per year by
Department Could Save
                              transferring 143,000 acres of the Monument to the Department of
About $1.5 Million Per Year
                              Interior. By applying the average assessed value per acre to the
                              Monument lands available for transfer, we concluded that the
                              Department could save about $1.5 million of the $3.4 million it pays
                              annually in payments in lieu of taxes at the Hanford Site. In Fiscal
                              Year 2000, the Department of Interior paid the State of Washington
                              about $4.2 million for payments in lieu taxes for about 11.5 million
                              acres of Federally owned land in the state. By comparison, the
                              Department pays about $3.4 million per year for about 375,000 acres
                              at the Hanford Site.

                              We recognize that the transfer of land to the Department of Interior
                              would result in reduced payments in lieu of taxes to local
                              governments, and the Department is committed to providing
                              economic assistance to local communities. However, the
                              Department should not hold land that is managed by another Federal
                              agency solely to provide more financial assistance to local
                              governments. Additionally, transferring this land to the Department
                              of Interior would allow the Department to reprogram about
                              $1.5 million per year to further the Department's primary mission at
                              the Hanford Site, which is waste cleanup and environmental
                              remediation.

RECOMMENDATION                We recommend that the Manager, Richland Operations Office,
                              identify specific Monument lands that could be transferred without
                              adversely impacting Department operations, and request or initiate a
                              transfer of the land to the Department of Interior.




Page 5                                                        Recommendation and Comments
MANAGEMENT         Management partially concurred with the finding and
REACTION           recommendation and is conducting a detailed analysis to review the
                   costs and operational impacts of transferring portions of the
                   Monument lands to the Department of Interior. Upon completion of
                   the analysis, expected in December 2001, the Department will begin
                   discussions with the Department of Interior regarding transfer of
                   administrative control of identified Monument lands. Management
                   estimates that between 18 and 24 months may be required to fully
                   finalize and implement a transfer.

                   However, management did not agree with the proposed transfer of
                   land included in the Arid Lands Ecology Reserve at this time, stating
                   that this tract of land supports a wide range of environmental,
                   physical, chemical, and biological research conducted by scientists
                   and educators working for Federal, state, private, industrial, and non-
                   profit organizations. While research conducted on the Arid Lands
                   Ecology Reserve supports the Hanford cleanup mission, it also
                   supports the broader Department national mission of long-term
                   science research and science education. Additionally, management
                   noted that as the cleanup mission and efforts to shrink the site
                   proceed, a portion of this area can be considered for transfer, taking
                   into account the status of the Department's research mission at that
                   time.

                   Management also did not agree with the estimate of cost savings,
                   stating that the cost savings to the Federal government as a whole are
                   unknown and cannot be determined until a full analysis has been
                   completed. Cost savings would initially be offset by transaction
                   costs associated with a land transfer.

AUDITOR COMMENTS   Management's decision to review the costs and operational impacts
                   of transferring Monument lands to the Department of Interior is
                   responsive to the audit recommendation. However, we disagree with
                   management's position that the Arid Lands Ecology Reserve should
                   not be considered for transfer to the Department of Interior at this
                   time. Since the U.S. Fish and Wildlife Service already manages the
                   Arid Lands Ecology Reserve, we see no practical reason why control
                   of this tract should not be transferred to the Department of Interior at
                   the same time as land within the Wahluke Slope and the McGee
                   Ranch/Riverland areas.




Page 6                                              Recommendation and Comments
         The Department does not need to retain administrative control of the
         Arid Lands Ecology Reserve to support environmental, physical,
         chemical, and biological research conducted by state, private, industrial,
         or non-profit organizations. These organizations should negotiate for
         access rights with the Department of Interior. If the Department
         requires continuing access to this land to support the Hanford Site's
         cleanup mission, then a memorandum of understanding, or similar
         document, should be negotiated.

         Finally, we acknowledge that the exact cost savings of a land transfer
         cannot be determined at this time. Our estimate of the cost savings is
         based on the average assessed value per acre of land for making
         payments in lieu of taxes to local governments. The actual cost savings
         could be significantly different depending on the amount of transaction
         costs, periodic increases in the Department's payments in lieu of taxes,
         and other factors, some of which offset each other.




Page 7                                      Recommendation and Comments
Appendix 1

SCOPE         The audit was performed from February 27, 2001, to May 16, 2001, at
              the Office of Assistant Secretary for Environmental Management at
              Department Headquarters, and the Richland Operations Office in
              Richland, Washington. The scope of the audit was limited to the
              Department's administrative control of the 195,000-acre Hanford Reach
              National Monument.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed Department officials at Headquarters and the
                     Richland Operations Office regarding land management
                     activities;

                 •   Reviewed information related to the Department's mission and
                     the Hanford Reach National Monument;

                 •   Analyzed the Department's September 1999 Final Hanford
                     Comprehensive Land-Use Plan Environmental Impact
                     Statement;

                 •   Analyzed land-use maps, future land-use plans, and the need for
                     buffer zones as presented in the 1999 land-use environmental
                     impact statement; and,

                 •   Calculated potential savings based on records of payments in
                     lieu of taxes at the Hanford Site.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls related to the Department's
              management of land at the Hanford Site. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              assess the reliability of computer processed data because computer
              processed data was not used during the audit.




Page 8                                                     Scope and Methodology
         Finally, we assessed the Department's compliance with the Government
         Performance and Results Act of 1993. The Department had not
         developed specific performance measures related to the transfer of land
         within a national monument because until the establishment of the
         Hanford Reach National Monument, it controlled no other national
         monument lands.

         We held an exit conference with Richland Operations Office on
         July 13, 2001.




Page 9                                               Scope and Methodology
Appendix 3

PRIOR OFFICE OF     The Office of Inspector General has issued several audit reports that
INSPECTOR GENERAL   identified problems with the Department's management of land.
REPORTS
                       •   DOE/IG-0502, Sale of Land at Oak Ridge, May 2001. The
                           audit concluded that the sale of 182 acres of land to a private
                           developer in Oak Ridge, Tennessee was not an appropriate use
                           of the special authorities granted to the Department under the
                           Atomic Energy Act of 1954.


                       •   DOE/IG-0469, Land Conveyance and Transfer at Los Alamos
                           National Laboratory, April 2000. The audit concluded that the
                           Department has not validated the cost estimates associated with
                           the landlord activities for ten tracts of land identified for
                           conveyance and transfer at Los Alamos.

                       •   DOE/IG-0446, Hanford Site Cleanup Objectives Inconsistent
                           With Projected Land Uses, June 1999. The audit determined
                           that part of the Hanford Site was being cleaned for residential
                           use even though land-use planning documents never envisioned
                           such use.

                       •   ER-L-99-01, Audit of Sale of Land to an Oak Ridge Hospital,
                           November 1998. The audit questioned whether it was in the
                           Government's best interest for the Oak Ridge Operations Office
                           to exchange 3.5 acres of land for a 20-year use permit rather
                           then sell property and deposit all proceeds into the U.S.
                           Treasury.




Page 10                                        Prior Office of Inspector General Reports
                                                                             IG Report No. : DOE/IG-0514

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
